OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/UKRAINE’S
LOCAL GOVERNANCE
PROGRAM
AUDIT REPORT NO. 8-121-06-004-P
July 10, 2006




FRANKFURT, GERMANY 

      Office of Inspector General


July 10, 2006

MEMORANDUM

TO:             USAID/Ukraine, Mission Director, Earl Gast

FROM:           Regional Inspector General, Frankfurt, Gerard M. Custer /s/

SUBJECT:        Audit of USAID/Ukraine’s Local Governance Program
                (Report Number 8-121-06-004-P)



This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included them in their entirety as
Appendix II. The report contains two recommendations; based on your comments and the
documents you submitted, final action is considered to have been taken on both
recommendations.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.



.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 2 


           Has USAID/Ukraine monitored its Local Governance activities in 

           accordance with USAID guidance to ensure that those activities 

           were progressing as intended? ........................................................................... 2


Audit Findings ................................................................................................................. 3 


     Some Mission Performance Data 

     Did Not Meet USAID Quality Standards ..................................................................... 4 


     Changes to Performance Indicators 

     Were Not Documented ............................................................................................... 6 


Evaluation of Management Comments ......................................................................... 8 


Appendix I – Scope and Methodology .......................................................................... 9 


Appendix II – Management Comments ....................................................................... 11 


Appendix III – USAID/Ukraine Local Governance Performance Indicators ............. 12

SUMMARY OF RESULTS

USAID/Ukraine’s Local Governance Program seeks to enhance the capacity of local
governments to deliver municipal services, develop transparent financial planning and
management strategies, and provide forums for an informed citizenry to actively
participate in local decision-making. (See page 2.)

This audit of USAID/Ukraine’s Local Governance Program was designed to determine if
the Mission was monitoring the program in accordance with USAID guidance to ensure
that the activities were progressing as intended.  The audit was part of the Office of
Inspector General’s fiscal year 2006 annual audit plan and was conducted to promote
improvements in the way USAID/Ukraine monitors its activities to advance the growth of
democracy and good governance in Ukraine. (See page 2.)

USAID/Ukraine developed seven useful performance indicators to measure the progress
of its Local Governance Program. Most of the related performance data that the Mission
collected, maintained and reported in connection with these indicators was found to be
accurate and readily verifiable; however, some of this data was incomplete, erroneous or
not adequately supported. This occurred because the Mission had not implemented
prescribed data quality procedures in monitoring its implementing partners, and because
the Mission had not fully reviewed the performance data before including it in the
Mission’s annual report. Consequently, the performance data maintained and reported
by USAID/Ukraine has not always been a fully reliable measure of the Local Governance
Program’s progress toward its intended results. (See pages 3 through 5.)

In addition, the Mission did not document the reasons for changes made to some
indicators―changes that had a significant impact on reported program results. For fiscal
year 2005 reporting, the Mission significantly changed the methodology for evaluating
progress under three of its indicators. However, contrary to USAID’s Automated
Directory System (ADS) requirements, the reasons for these changes were not well
documented, and the Mission did not update its Performance Monitoring Plan to reflect
the changes. When a mission fails to adequately document revisions to its performance
measurement methodology, it increases the risk that data may not be consistently
collected and reported over time. (See pages 6 through 7.)

In comments on our draft report, USAID/Ukraine officials concurred with our report
findings and outlined actions they had taken to address our concerns.        Specifically,
USAID/Ukraine issued a Mission Notice that established procedures for ensuring
performance data is adequately verified and reviewed prior to the data’s inclusion in the
Mission’s Annual Report. In addition, USAID/Ukraine documented changes made to its
three Local Governance performance indicators and updated the PMP to reflect those
changes. As a result, we consider that final action has been taken on both
recommendations. (See page 11.)




                                                                                        1
BACKGROUND
USAID/Ukraine’s activities in the areas of local government, municipal development and
local economic development are designed to enhance the capacity of local governments
to improve service delivery, further develop transparent financial planning and
management strategies, and provide forums for an informed citizenry to actively
participate in local decision-making.

According to USAID’s guidance on performance management, missions need well-
designed performance indicators to effectively monitor activity progress and to measure
and compare actual results against expected results.        ADS Chapter 203 provides
guidance on how Operating Units should assess whether activities are actually achieving
the intended results. Specifically, it requires missions to develop and maintain a
Performance Management Plan (PMP) that includes at least one broad performance
indicator to measure progress towards each Strategic Objective (SO) and at least one
Intermediate Result (IR) performance indicator under each SO to measure progress
towards essential intermediate steps. These indicators should provide, among other
things, direct, objective and useful information about the program’s progress toward
achieving intended results.

As of September 30, 2005, USAID/Ukraine’s PMP defined seven indicators for
assessing the progress of the Local Governance program activities: two SO-level
performance indicators, two IR-level indicators, and three sub-IR indicators (for a
complete list of the indicators, see Appendix III). The Mission collected performance
data for the two SO-level indicators from independent surveys and evaluations related to
democratic conditions in Ukraine. Data for the remaining five performance indicators
was submitted by the program’s four primary implementing partners, as the performance
indicators closely tracked the specific outputs from contracts and grant agreements.



AUDIT OBJECTIVE
This audit was part of the Office of Inspector General’s fiscal year 2006 annual audit
plan and was conducted to promote improvements in the way USAID/Ukraine monitors
the activities that advance the growth of democracy and good governance in Ukraine.

The audit was conducted to answer the following question:

   •	 Has USAID/Ukraine monitored its Local Governance activities in
      accordance with USAID guidance to ensure that those activities
      were progressing as intended?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      2
AUDIT FINDINGS

In general, USAID/Ukraine monitored its Local Self Governance Program to ensure that
the activities were progressing as intended. For example, the Mission’s performance
indicators, which represent a critical tool in the Mission’s monitoring of this program, were
determined to be appropriate for tracking program progress, with most of the performance
data collected, maintained and reported under these indicators having met USAID’s quality
standards. However, some of the reported results were incomplete, erroneous or not
adequately supported. In addition, the Mission did not document the reasons for
changes made to some indicators─changes that had a significant impact on reported
program results.

USAID/Ukraine’s Performance Management Plan (PMP) defines each indicator’s baseline
and target values, the source of data and the data collection method, a schedule for data
collection, and other relevant items required by ADS 203.3.3. The SO-level indicators
track the general attitudes and perceptions of the citizens regarding local government
effectiveness and confidence, while the IR and sub-IR indicators are tied directly to
outputs and deliverables from USAID implementing partners─results that are reasonably
expected to contribute to the Mission’s objective of improving municipal operations.

With regards to the performance indicator results for fiscal years 2004 and 2005, much
of the Mission’s data was accurate and could be readily verified. The SO-level results
utilized surveys and analyses which were professionally completed following clear and
appropriate methodology. Furthermore, most of the data derived from implementing
partner reports could be verified as complete and accurate through a review of
implementer submissions, source documents, Mission site visit reports, and our own site
visits to a limited number of participating cities.




                                                                     Photograph taken April
                                                                     10, 2006 of a water
                                                                     pumping     station   in
                                                                     Chernigov, Ukraine that
                                                                     had been upgraded as
                                                                     part of a USAID/Ukraine
                                                                     sponsored effort.

In some instances, however, the performance data reported by the Mission was
incomplete, erroneous or not adequately supported and revisions to indicators were not
always documented. Specific concerns are discussed below in greater detail.




                                                                                           3
Some Mission Performance Data Did Not
Meet USAID Quality Standards

  Summary: According to ADS data quality standards, performance data should be
  accurate and reliable, and the Mission should take steps to ensure that submitted
  data is adequately supported and documented. While much of the Mission’s
  performance data met these requirements, in some instances the data was
  incomplete, erroneous or not adequately supported. These problems occurred
  because Mission personnel had not always followed prescribed data quality
  procedures while monitoring the activities of implementing partners, and because
  the Mission had not effectively reviewed indicator data prior to submitting its annual
  report. Consequently, the performance data reported by USAID/Ukraine, at times,
  overstated or understated actual activity results.

To ensure that performance data is useful in managing for results and credible for
reporting, ADS 203.3.5 requires that the data be precise and reliable. According to this
guidance, performance data should clearly and adequately represent the intended
results, and the Mission should take steps to ensure that submitted data is adequately
supported and documented. Towards this end, USAID/Ukraine issued guidance
requiring that data quality assessments for implementer-submitted data be incorporated
into normal activity monitoring through site visits, review of supporting data and
interviews with responsible individuals to verify data.

While in most cases USAID/Ukraine’s performance data met the data quality standards,
in three instances, it did not, causing the Mission to overstate or understate actual
program results for two of its seven performance indicators as shown below.


                        Impact of Data Discrepancies on 

            Local Governance Performance Results, FYs 2004 and 2005 


                                       Reported        Actual
      Performance            Fiscal     Annual       Results per      Impact on Annual
        Indicator             Year      Results        Audit              Results
 Services improved in                                                 Overstated results
                              2005         18             12
 targeted cities                                                        by 33 percent

 Targeted cities that use                                            Understated results
                              2005         19             35
 financial analysis model                                              by 46 percent

 Services improved in                                                Understated results
                              2004          4             18
 targeted cities                                                       by 350 percent


These problems occurred because prescribed data quality efforts had not been
incorporated into normal monitoring activities for all implementing partners and because
the Mission had not effectively reviewed indicator data prior to submitting its annual
report. Specific problems and related errors are discussed below.



                                                                                           4
For example, the performance data submitted by one of USAID/Ukraine’s four
implementing partners for FY 2005, relating to municipal service improvements, had not
been subjected to effective data quality procedures. Specifically, USAID/Ukraine could
not provide evidence that Mission personnel, as part of their normal activity monitoring,
had attempted to validate the reported improvements through site visits, interviews with
officials in the targeted cities, or reviews of implementer data. Furthermore, the audit
found that the partner maintained no documentation to support its reported municipal
service improvements, and we were unable to verify the claimed improvements during
site visits to two cities. As a result, the number of cities with verified improvements for
FY 2005 was only 12, rather than the 18 reported, causing the data reported under this
performance indicator to be overstated by 33 percent.

Other errors occurred because USAID/Ukraine had not adequately reviewed its
performance data after the Mission received and aggregated the various implementer
data submissions. For example:

   	 In a FY 2005 submission, implementers accurately reported that 35 cities had
      adopted an advanced financial analysis model to support the municipal
      budgeting process. However, the Mission’s FY 2005 annual report erroneously
      indicated that only 19 cities adopted the model that year―46 per cent less than
      the actual total. This error occurred as a result of a posting error during the
      preceding fiscal year, resulting in the accidental exclusion of 16 cities from the
      cumulative database. Effective review of the data should have identified the
      discrepancy between the implementers’ submissions and the reported increase.

   	 In December 2004, one of the Mission’s implementing partners submitted
      performance data identifying municipal improvements in 14 cities for FY 2004.
      However, the Mission misplaced this data submission, and the cities were not
      included in the annual reporting for that fiscal year. Had the Mission included
      this data, the number of cities showing improvements in FY 2004 would have
      increased from 4 to 18─a 350 percent increase. Effective review of the data
      should have noted that the input from one of the four implementers was missing.

As a result of these discrepancies, the Mission’s FY 2004 and 2005 annual reports
contained three errors that caused the data reported with respect to the Local
Governance Program’s performance to be either overstated or understated. Such errors
reduce the usefulness and effectiveness of performance data as a management tool.

To address these concerns, we are making the following recommendation:

   Recommendation No 1:              We recommend that USAID/Ukraine develop
   procedures to ensure performance data is adequately verified and reviewed
   prior to the data’s inclusion in the Mission’s annual report.




                                                                                         5
Changes to Performance
Indicators Were Not Documented

 Summary: According to ADS guidance, Operating Units may change, add, or drop
 performance indicators based on a compelling reason, but such changes should be
 well documented to facilitate performance data analysis and evaluation of compliance
 with data quality standards. In FY 2005, USAID/Ukraine significantly altered the data
 collection methodology for three of seven local governance performance indicators.
 However, due to an administrative oversight, these changes were not documented
 during the portfolio review process, and the PMP was not updated to reflect the
 changes and ensure the continuity of the data collection process. As a result, the
 Mission did not maintain appropriate documentation of the performance measurement
 methodology to ensure data would be consistently collected and reported over time.


According to ADS 203.3, performance indicators should be (1) precisely defined in the
PMP, (2) unambiguous about what is being measured, and (3) reflect stable and
consistent data collection processes and analysis methods. While Operating Units may
change, add, or drop performance indicators based on a compelling reason, operating
units are responsible for documenting these changes (including the reasons for the
changes) and updating their PMPs. Adequate documentation facilitates the collection of
comparable performance data from one measurement period to the next and is
especially important in an organization like USAID, where there is considerable staff
turnover. Furthermore, documenting the specific characteristics of indicators and data
allows staff to explain their procedures to those who are seeking assurance that quality
standards are being maintained in the collection and reporting of performance data.

In FY 2005, USAID/Ukraine significantly changed the data collection methodology for
three of seven Local Governance performance indicators. Prior to FY 2005, the Mission
counted each city that implemented municipal improvements, adopted a strategic plan,
and/or adopted advanced financial analysis models only once even if the city had
achieved more than one of these performance measures. For FY 2005, the Mission
started counting the number of improvements, strategic plans or adopted financial
analysis models separately. Consequently, cities with multiple advances in each
category were counted multiple times. This change resulted in a significant increase in
the program’s performance results under three of the performance indicators for FY
2005, as shown in the table on the following page:




                                                                                      6
               Comparison of Performance Results Fiscal Year 2005: 

                       Original and Revised Methodologies


                                FY 2005           FY 2005            Percentage
        Performance           Results with      Results with       Difference with
         Indicators             Original          Revised              Revised
                              Methodology       Methodology         Methodology
  Services improved in
                                    10               18              +80 percent
  targeted cities

  Targeted cities that use
                                     5               12             +140 percent
  strategic plans

  Targeted cities that use
                                    14               35             +150 percent
  financial analysis model

Although the changes had a significant impact on program results─increasing the final
results under each indicator─the Mission had no record of why the change was made or
who had approved the change. Furthermore, the Mission had not updated the PMP to
reflect the changes and ensure the consistent collection of data over time as required.

According to Mission personnel, the changes in data collection methodology had been
discussed and approved by Mission management during the most recent portfolio review
of the Local Governance Program. However, because of an administrative oversight,
these approved changes were not documented, and the PMP was not updated to reflect
the changes.

As a result, the Mission’s current performance measurement methodology for the three
performance indicators is not adequately documented for future reference. This lack of
documentation increases the risk of confusion and the possibility that performance data
may not be consistently collected and reported over time.

To correct this situation, we are making the following recommendation:

   Recommendation No. 2: We recommend that USAID/Ukraine document the
   recent changes made to its three Local Governance performance indicators and
   update the PMP to reflect those changes.




                                                                                     7
EVALUATION OF
MANAGEMENT COMMENTS
In its comments on our draft report, USAID/Ukraine agreed with the audit findings and
provided documented evidence of the actions taken to address our concerns.
Specifically, USAID/Ukraine issued a Mission Notice that established procedures for
ensuring performance data is adequately verified and reviewed prior to the data’s
inclusion in the Mission’s Annual Report. In addition, USAID/Ukraine documented
changes made to its three Local Governance performance indicators and updated the
PMP to reflect those changes.
We believe that the Mission’s actions are appropriate to correct the identified problems
and consider that final action has been taken on both recommendations.
Mission comments have been included in their entirety in Appendix II of this report.




                                                                                      8
                                                                                Appendix I




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General in Frankfurt audited USAID/Ukraine’s monitoring of its
Local Governance activities in accordance with generally accepted government auditing
standards. The purpose of the audit was to determine whether USAID/Ukraine was
monitoring the activities in accordance with USAID guidance to ensure that the activities
were progressing as intended. In particular, the audit focused on the Mission’s
compliance with ADS Chapter 203, as this chapter provides guidance on how operating
units should assess whether activities are actually achieving their intended results.

In planning and performing the audit, we assessed management controls related to the
development, implementation, use and management review of performance measures
and indicators. Specifically, we reviewed (1) the Mission’s fiscal year 2004 and 2005
annual reports, (2) the Performance Management Plan, (3) ADS requirements related to
performance measures, (4) data quality assessment procedures and results, (5) Federal
Manager’s Financial Integrity Act requirements related to performance indicators, and (6)
the portfolio review process. Additionally, we considered relevant prior audit findings
from a similar audit completed in Russia. We also evaluated the Mission’s current
performance indicators for Local Governance activities as well as the performance data
collected and reported under these indicators as of September 30, 2005.

We conducted the audit at the USAID/Ukraine Mission in Kiev, Ukraine and at various
implementing partner site locations in Kiev. To further verify results, we also visited four
cities in Ukraine that had participated in USAID-sponsored Local Governance activities.
The audit was conducted from February 21 through April 21, 2006.

Methodology
To form a conclusion about whether USAID/Ukraine monitored its Local Governance in
accordance with USAID guidance, we first reviewed applicable USAID policy and
procedures. We interviewed CTOs, implementing partners and Mission managers
regarding their roles in developing and maintaining performance indicators and related
performance data.       We also tested various management controls relevant to
performance indicators—including the Performance Management Plan, data quality
assessment procedures and results for all active indicators, the FMFIA review process,
and the portfolio review process—and evaluated the effectiveness of these controls.

We then evaluated the Mission’s compliance with relevant Agency polices, including
ADS 202 and ADS 203, including the requirements to develop and maintain useful
performance indicators. Furthermore, we tested a judgmental sample of performance
results and compared reported results against documented results for a judgmentally
selected sample of indicator results submitted by contractors and implementing partners
for FYs 2004 and 2005 to verify the Mission’s determination of each project’s
performance. Finally, our testing included site visits to four Ukrainian cities to verify
reported performance results for selected indicators.



                                                                                          9
                                                                            Appendix I



When testing reported results, we used a five percent threshold to determine if the
Mission accurately reported its specific performance results. That is, if the Mission’s
specific reported result under each indicator was within five percent of the documented
result (based on records retained by the implementing partner), we concluded that the
data had been accurately reported.




                                                                                    10
                                                                              Appendix II



MANAGEMENT COMMENTS



June 21, 2006

MEMORANDUM

TO:	            Gerard M. Custer /s/, Regional Inspector General, Frankfurt

FROM:	          Earl Gast, USAID/Ukraine, Mission Director

SUBJECT:	       Response to Draft Report on the Audit of USAID/Ukraine’s Local
                Governance Program Report Number 8-121-06-00x-P


Dear Mr. Custer:

Thank you for allowing us the opportunity to review the draft report on the Audit of
USAID/Ukraine’s Local Governance Program and for the professional and cooperative
way in which the review was conducted. We agree with the audit review findings and
believe it will assist us to improve our performance monitoring and reporting.
Description of the actions taken to address the findings and recommendations of the
draft report, are as follows:
Recommendation No. 1
We have issued a Mission Notice, a copy of which is attached, that sets forth procedures
for ensuring performance data is adequately verified and reviewed prior to the data’s
inclusion in the Mission’s Annual Report.
Recommendation No. 2
USAID/Ukraine has documented the recent changes made to its three Local
Governance performance indicators and updated the PMP to reflect those changes. A
copy of the updated PMP, which includes Performance Indicator Reference Sheets and
SO 4 Performance Data Table, is attached, as is a Memorandum to the Files describing
actions taken to address this audit recommendation.
We believe that the Mission has taken corrective meaningful actions, as indicated above,
to close both audit recommendations upon issuance of the final report.
                                             Sincerely,


                                             Earl Gast,
                                             Mission Director



                                                                                       11
                                                                      Appendix III




     USAID/UKRAINE LOCAL GOVERNANCE 

         PERFORMANCE INDICATORS 


Strategic Objective 4: Government Institutions are More Effective, Transparent,
and Accountable to the Citizens

Indicator 1: Local Good Government Index
Indicator 2: Freedom House Governance Rating


Intermediate Result 4.1 Autonomy and Responsiveness of Local Self-governance
Increased

Indicator 1: Services Improved in Targeted Cities
Indicator 2: Progress in Local Government Autonomy-Enhancing Reforms Scorecard


Sub-Intermediate Result 4.1.1 Management of Municipal Services and Assets
Improved
Indicator 1: Targeted cities that use strategic plans
Indicator 2: Targeted cities that use financial analysis model
Indicator 3: Targeted cities that use advisory boards in decision-making




                                                                                  12
